                                   UNCLASSIFIED


                                            Review of Implementation of
                                        The Federal Voter Assistance Program
                                         Memorandum Report No. 01-FP-M-045

                                                            August 2001




Summary                         The Office of Inspector General (OIG) reviewed the Department
                                of State’s (Department) implementation of the Federal Voter Assis-
                                tance Program (FVAP) in response to American Foreign Service
                                Association (AFSA) concerns about news media accounts of over-
                                seas absentee ballots being disqualified for the November 2000
                                Presidential election. Our review was conducted concurrently with
                                the Department of Defense (Defense) OIG and the General Ac-
                                counting Office (GAO) reviews of the Uniformed and Overseas
                                Citizens Absentee Voting Act of 1986 (Public Law 99-410)
                                (UOCAVA). The Secretary of Defense and several congressional
                                committees requested those reviews.
                                     GAO and OIG jointly reviewed UOCAVA as implemented by
                                FVAP at four U.S. embassies and one consulate general. The pur-
                                pose of FVAP is to help members of the U.S. Uniformed Services,
                                family members, and nonmilitary American citizens residing abroad
                                to participate in primary and general elections when they are unable
                                to vote in person at the polls. Defense is the lead agency for FVAP,
                                and the Department implements FVAP for nonmilitary American
                                citizens residing abroad. The Department’s chief voting assistance
                                officer (VAO) in the Bureau of Consular Affairs and the VAOs at
                                over 200 posts overseas are responsible for implementing FVAP in
                                serving over 3.8 million American citizens abroad. Our major ob-
                                servations are that:
                                • The Department, in partnership with nongovernmental
                                  organizations (NGOs), is generally meeting the absentee voting
                                  needs of American citizens abroad. However, the Department
                                  needs to improve its outreach to all nonmilitary American
                                  citizens abroad.
                                • The Department’s chief VAO was established to serve as a
                                  conduit for Defense FVAP information to posts abroad.
                                  However, post VAOs were either unaware of the chief VAO’s
                                  existence or explained that implementation of FVAP relied more
                                  on a post’s relationship with Defense FVAP than the

Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001           1


                                   UNCLASSIFIED
                                   UNCLASSIFIED



                                  Department’s VAO. Post VAOs received favorable overall
                                  satisfaction ratings of 75 percent by those U.S. Government and
                                  private American citizens polled by OIG. (See Appendices A
                                  and B).
                               • The Department’s FVAP planning, funding, and training have
                                 not prepared it for the shift in the overseas population served by
                                 FVAP. Since 1986, the presence of nonmilitary American
                                 citizens abroad has increased dramatically, with nonmilitary
                                 citizens currently outnumbering the military overseas by 7 to 1.
                               • Most private American citizens used international and express
                                 mail services to return absentee ballots to the United States, and
                                 most Government employees relied on the military postal
                                 system. The Department’s diplomatic pouch system was used
                                 the least. OIG found no evidence to support the assertions that
                                 the Government mail systems were too slow, or that the lack of
                                 postmarks caused many absentee ballots to be disqualified by
                                 local election officials. GAO recently testified that preliminary
                                 results from a phone survey of local election jurisdictions show
                                 that the most common reasons ballots were disqualified
                                 included: 1) ballots arrived after the established deadline, 2)
                                 ballots lacked a voter’s or witness’ signature, and 3) voters were
                                 not registered to vote. GAO also testified that their limited
                                 review of the military postal system and postmarking procedures
                                 after the election did not indicate that either missing postmarks
                                 or the lack of timeliness of mail delivery represented a systemic
                                 problem. Several NGOs suggested correcting potential
                                 postmark and mail transit time problems by having all states
                                 require that ballots arrive by Election Day.



Recommendations                OIG recommends that the Department position itself for a more
                               active role in FVAP implementation by structuring, planning, and
                               programming for increased outreach to American citizens abroad.
                               OIG also recommends that the Department identify its FVAP
                               training needs and coordinate with the Defense FVAP to conduct
                               selected sessions to train Department FVAP instructors. NGOs
                               have played a vital role in partnering with the Department to assist
                               absentee voters. OIG recommends that the Department acknowl-
                               edges those contributions and foster increased partnering in the
                               future.




2   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                   UNCLASSIFIED
                                   UNCLASSIFIED




Objectives, Scope               The objectives for our review were to determine: 1) how well the
and Methodology                 Department and its VAOs have implemented FVAP in support of
                                American citizens abroad, 2) what impediments, if any, there are to
                                the Department’s implementation of FVAP, and 3) how the Depart-
                                ment can improve its FVAP services, including mail, for all Ameri-
                                can citizens supported by our posts abroad.
                                     OIG performed primary fieldwork on this review from Febru-
                                ary to March 2001. Our fieldwork was conducted jointly with GAO
                                at Embassies Paris and Rome, and Consulate General Frankfurt.
                                GAO conducted fieldwork at Embassy Tokyo, and OIG conducted
                                fieldwork at Embassies London and Tel Aviv. Although these posts
                                represent large American citizen population centers for the Depart-
                                ment, our collective findings from these locations alone were not
                                projected worldwide. They were used, however, in conjunction
                                with a worldwide absentee voter assistance survey of 216 posts to
                                assess the Department’s FVAP and develop review findings, obser-
                                vations, and recommendations. Of the 216 posts surveyed, 136
                                responded, for a response rate of 63 percent. (See Appendix C.)
                                Although parts of OIG’s review were performed jointly with GAO
                                and concurrently with the Defense OIG, each office’s scope dif-
                                fered, and each office will independently publish review findings
                                and recommendations.
                                    OIG fieldwork included conducting interviews, administering
                                125 absentee voter questionnaires, and conducting 25 small group
                                discussions with U. S. Government and private American citizen
                                voters. The following list identifies the officials and organizations
                                that OIG queried.
                                   Department bureaus and staff included:
                                      • Bureau of Consular Affairs,
                                      • Consular section chiefs,
                                      • American citizen services officers,
                                      • Public affairs officers, and
                                      • Department and post level VAOs and their Foreign
                                        Service national assistants.
                                   Government organizations included:
                                      • Department of Defense, Federal Voter Assistance
                                        Program officials, and
                                      • Federal Election Commission officials.



Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001            3


                                   UNCLASSIFIED
                                   UNCLASSIFIED


                                  Government and private mail and pouch system officials and
                               organizations included:
                                  • Regional and local Military Postal Officers,
                                  • the Department’s Bureau of Information Resource
                                    Management,
                                  • the Department’s Division chief, Mail and Pouch System,
                                  • the Department’s Diplomatic Pouch Mailroom supervisors,
                                    and
                                  • Regional and local officials of DHL Incorporated.


                                  Nongovernmental organizations included:
                                     • Democrats Abroad,
                                     • Republicans Abroad,
                                     • The American Chambers of Commerce,
                                     • The American Community Roundtable,
                                     • The Federation of American Women’s Clubs Overseas
                                       and associated club officials from Dusseldorf,
                                       Paris, Rome, and Taunus,
                                     • The Association of Americans Resident Abroad,
                                     • The American Association of Retired Persons Abroad,
                                     • The American Club of Paris,
                                     • American Citizens Abroad,
                                     • The Agudath Israel of America,
                                     • The Association of Americans and Canadians in Israel,
                                       and
                                     • The Yale Club.


                                   Major contributors to this report were Charles Anderson, issue
                               area manager, and Herbert Harvell Jr., evaluation manager. Other
                               contributors included Andrew Miller and Mikael Cleverly at Em-
                               bassy Tel Aviv; and Katherine Brandeis, Carol Bingham, Judy Kuo,
                               Claudia McLees, Matthew Hurley, Aleisha Woodward, and Romulo
                               Gallegos at Embassy London.
                                    In accordance with the Paperwork Reduction Act, all overseas
                               absentee ballot questionnaires administered to private American
                               citizens contained a Paperwork Reduction Act notice and Office of
                               Management and Budget clearance number 1405-0127, expiration
4   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                   UNCLASSIFIED
                                   UNCLASSIFIED


                                date August 31, 2001. (See Appendix D.) This evaluation was con-
                                ducted in accordance with the Quality Standards for Inspections, as is-
                                sued by the President’s Council on Integrity and Efficiency, and the
                                Inspector’s Handbook, as issued by the Office of Inspector General,
                                U.S. Department of State.



Background                      On December 11, 2000, AFSA requested that OIG conduct a re-
                                view of the Department’s procedures for assisting overseas absen-
                                tee voters. AFSA pointed out that UOCAVA requires the U.S. Gov-
                                ernment to assist overseas citizens to register and vote by absentee
                                ballot. Although Executive Order 12642, of June 8, 1988, gave the
                                Secretary of Defense primary responsibility for Federal functions
                                under UOCAVA, the Department of State has a number of duties
                                as spelled out in the Foreign Affairs Manual (7 FAM 1500). Specifi-
                                cally, posts are obligated to encourage all U.S. citizens within their
                                consular jurisdiction to register to vote in all U.S. elections. Posts
                                are to ensure that voters are provided the information necessary to
                                register and vote, including election dates and other similar informa-
                                tion of a nonpartisan nature.
                                     Each post must designate a consular officer as a principal voting
                                officer to ensure that U.S. citizens requiring information and assis-
                                tance can obtain it promptly. Posts, through their voting officers,
                                are to advise overseas citizens of their right to vote and provide ap-
                                propriate information, assistance, and guidance to enable overseas
                                citizens to apply to vote by absentee ballot. The FVAP Voting Assis-
                                tance Guide is to be made accessible to U.S. citizens who wish voting
                                information and assistance. Voting officers are to engage in out-
                                reach efforts to encourage voting by U.S. citizens living abroad. Ab-
                                sentee ballots and applications (Federal post card applications, Fed-
                                eral write-in absentee ballots, and state absentee ballots and applica-
                                tions) can be mailed by posts through its Army Post Office (APO)
                                or Fleet Post Office (FPO) facility, or through its diplomatic pouch
                                service in the event a post does not have military postal facilities.
                                     AFSA explained that reported reasons for rejecting overseas
                                ballots included not arriving in time, having a postmark dated after
                                the appropriate deadline, the lack of any dated postmark, and the
                                lack of a postmark that election officials recognized as indicating an
                                overseas voter. Additionally, AFSA noted that a number of Depart-
                                ment procedures could contribute to such problems. For example,
                                pouched mail is often very slow and only receives a postmark after
                                it arrives in the United States. In addition, AFSA noted that
                                pouched mail has a Washington, DC, return address. Also, some


Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001          5


                                   UNCLASSIFIED
                                   UNCLASSIFIED


                               embassies took advantage of the offer by DHL and Federal Ex-
                               press to fly absentee ballots to the United States, which AFSA as-
                               serts may have resulted in some ballots being disqualified for having
                               a U.S. postmark.
                                   In response to AFSA’s request, on January 3, 2001, OIG com-
                               mitted to conducting a review of the Department’s FVAP and the
                               mail procedures used to return absentee ballots to the United States.

                               The Demographics of U.S.
                               Absentee Voting Abroad

                               Some discrepancies exist in determining the number of nonmilitary
                               American citizens residing abroad. Defense FVAP officials estimate
                               that there are 4 million absentee voters overseas; 3.5 million are
                               nonmilitary U.S. citizens residing abroad. The September 30, 2000,
                               Office of the Secretary of Defense report, Worldwide Manpower Dis-
                               tribution by Geographical Area, indicates that 544,153 military, civilians
                               working for Defense, and their family members are abroad. The
                               Department, on the other hand, estimates the number of nonmili-
                               tary American citizens abroad to be 3.8 million. Private American
                               citizens account for 3,784,693 and all Government agencies have
                               32,171 U.S. personnel and family members at diplomatic posts
                               abroad, of which the Department has 6,158 Civil and Foreign Ser-
                               vice personnel abroad. Over 30 Government agencies, administra-
                               tions, and departments are represented at Department posts
                               abroad.
                                    The Department has 216 American citizen services (ACS) sec-
                               tions in embassies, consulates, and interest sections that provide
                               absentee voter assistance as part of their consular work. The De-
                               partment serves two groups of American citizen voters: expatriates
                               and dual nationals. Expatriates once lived in the United States and
                               are now living overseas, while dual-national citizens may or may not
                               have ever lived in the United States. The Department could not
                               determine the number of American citizens in each of those
                               groups. According to Department voting officials, expatriate com-
                               munities are concentrated in major cities abroad, are the largest vot-
                               ing group, are more organized, and hence are the easier group to
                               contact. In contrast, dual nationals, particularly those that have
                               never lived in the United States, are the most difficult population to
                               reach, and their lack of a U.S. domicile provides an absentee voting
                               challenge. To overcome this problem, VAOs advised dual-national
                               American citizens to use their parent’s last U.S. address or that of a
                               county/parish/city clerk’s office.
                                   At posts abroad, VAO duties are among the multiple responsi-
6   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                   UNCLASSIFIED
                                   UNCLASSIFIED


                                bilities of ACS officers. Most VAOs contacted by OIG estimated
                                that 10 to 20 percent of their and their principal Foreign Service
                                national’s (FSN) time during the 3 months (August, September, and
                                October) leading up to the November 7, 2000, Federal election was
                                spent on VAO duties. Those VAOs interviewed by OIG estimated
                                that they assisted over 66,000 American citizens in registering and
                                voting in the 2000 Federal Elections.

                                Outreach: the Department’s Means of
                                Communicating with U.S. Citizens Abroad

                                Outreach is the term used by the Department to describe the means
                                and methods used to inform American citizens of situations, poli-
                                cies, programs, and services provided by their incountry U.S. em-
                                bassy, consulate, or interest sections (all commonly referred to as
                                posts). The Department’s primary means of identifying its outreach
                                customers is using information from the list of citizens who volun-
                                tarily register with each post to form a citizens’ network for emer-
                                gency notification or evacuation purposes — called the Warden Sys-
                                tem. The Warden System contains both individual citizens and
                                groups of American citizens, such as the Federation of American
                                Women’s Clubs Overseas. The completeness of a Warden System is
                                dependent on citizens registering with their local post and their cor-
                                responding perceived need for emergency notification and other
                                post services. ACS officers informed OIG that the more industrial-
                                ized and stable the country, the less all encompassing the Warden
                                System is in identifying all American citizens living there. In first-
                                world countries, like the United Kingdom, where the number of
                                resident American citizens is in the hundreds of thousands, a War-
                                den System is not practical. Instead, the post uses an organization
                                and media-based outreach system to inform and otherwise serve
                                American citizens.
                                    Methods the Department has used to conduct absentee voter
                                outreach include Warden System notices; articles in post newsletters
                                and the International Herald Tribune; establishing voter informa-
                                tion telephone answering systems and web sites; hosting Defense
                                FVAP voter assistance officer training sessions for Government and
                                private citizens, companies, and organizations; and providing absen-
                                tee voting materials, instructions, and U.S. postage stamps to Ameri-
                                can citizens visiting or contacting the post for assistance. (See Fig-
                                ures 1 and 2.) One post attributed a $2,000 increase in its mailing
                                costs to sending American citizens absentee voting materials. Most
                                ACS sections include absentee voter information in passport mail-
                                ings, and staff in two of the five posts visited stated they were inter-


Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001           7


                                   UNCLASSIFIED
                                   UNCLASSIFIED


                               viewed by the local foreign press concerning the 2000 Federal Elec-
                               tion. Post VAOs informed OIG that more than 66,000 American
                               citizens were directly assisted during the 2000 Federal elections, and
                               thousands more were assisted by organizations partnering with
                               posts.
                                   NGOs play a vital role in the Department’s ability to conduct
                               outreach and execute Department programs including the absentee
                               voter assistance program. NGOs, including Democrats Abroad,
                               Republicans Abroad, and many others, provide an organizational
                               structure for reaching American citizens, coordinating events and
                               programs, and partnering to provide services to the American citi-
                               zen community abroad. During the 2000 Federal elections and ev-
                               ery election since passage of the 1975 Overseas Voting Act, NGOs
                               have provided members to be trained in voting assistance, con-
                               ducted voter registration drives, and assisted absentee voters in
                               completing and mailing their ballots. Based on OIG interviews
                               with over 10 NGOs, there is evidence that thousands of overseas
                               voters were assisted during the 2000 elections.




8   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                   UNCLASSIFIED
                                      UNCLASSIFIED




   Figure 1. Sample Post Outreach Material – Coordinated and Implemented with Nongovernmental Organizations

Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001              9


                                      UNCLASSIFIED
                                    UNCLASSIFIED




                                          Figure 2. Sample Post Outreach Material



10   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                    UNCLASSIFIED
                                   UNCLASSIFIED


                                Common Misconceptions
                                about Absentee Voting

                                Many of the challenges facing the Department, its post VAOs, and
                                absentee voters abroad are illustrated by these common misconcep-
                                tions about absentee voting:
                                   • Post voting assistance staffs deny American citizens their
                                       right to vote.
                                   • U.S. military personnel are the largest group of absentee
                                       voters overseas.
                                   • Posts are a place to vote. On Election Day, some American
                                       citizens went to U.S. embassies and consulates looking for the
                                       voting booth. Some absentee voters believed they could vote
                                       at an embassy or consulate, even though they were not
                                       registered to vote in any state. Others thought they were
                                       voting when they attended an ambassador’s election night
                                       celebration and an Internet online straw vote.
                                   • Absentee voters can send their votes by fax.
                                   • American citizens cannot vote unless they own property in
                                       the United States.
                                   • Absentee votes count only if the election is close.
                                   • Registering to vote makes an absentee voter subject to
                                       taxation.
                                    These absentee voting misconceptions are fertile ground for
                                global and local outreach by the Department.



Findings                        The Department Needs to
                                Assume a Prominent Role in FVAP

                                Beyond outreach, there is the larger question of the Department’s
                                role in implementing FVAP and, in view of the program’s purpose
                                and scope, whether the Department needed to play a leading role.
                                The Department is responsible for providing emergency and
                                nonemergency services, including absentee voter assistance, to all
                                3.8 million nonmilitary American citizens abroad. Military person-
                                nel were given the right to vote abroad by executive order in 1942,
                                while nonmilitary American citizens abroad were not given the right
                                to vote until 1975. NGO officials involved in the passage of the
                                1975 Overseas Voting Act and 1986 UOCAVA told OIG that De-
                                fense, with its infrastructure for absentee voter assistance in place
                                since the 1940s, agreed to incorporate civilian voters into what is
                                today the FVAP.

Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001       11


                                   UNCLASSIFIED
                                    UNCLASSIFIED


                                    According to the Voting Assistance Guide, the purpose and scope
                                of FVAP is to help American citizens participate in U.S. primary
                                and general elections when they are unable to vote in person at the
                                polls. Those citizens include:
                                   • members of the U.S. Uniformed Service (Army, Navy, Air
                                     Force, Marine Corps, Coast Guard) and the Commissioned
                                     Corps of the Public Health Service and National Oceanic
                                     and Atmospheric Administration,
                                   • members of the U.S. Merchant Marine,
                                   • family members of the above, and
                                   • nonmilitary affiliated U.S. citizens residing outside the United
                                     States.
                                    Since the inception of the Defense voter assistance program in
                                the 1940s, the target population of FVAP has changed from almost
                                entirely military to primarily nonmilitary American citizens living
                                abroad, who now outnumber military personnel and their family
                                members by a ratio of 7 to 1. The purpose of FVAP, although
                                broadened by adding nonmilitary American citizens, has remained
                                the same.
                                    The scope of FVAP has shifted to a population for which the
                                Department has become primarily responsible. However, none of
                                the American citizen focus groups, post VAOs, or post responses to
                                OIG absentee voting survey cables, recommended any change in
                                the current interagency organizational relationship of FVAP. All
                                lauded the outstanding job Defense has done in providing policy
                                and executing FVAP. All NGOs except one concurred with that
                                assessment. The exception was Democrats Abroad. They pro-
                                posed that the responsibility for military and other American citizen
                                absentee voter assistance could be divided. Democrats Abroad pro-
                                posed, for example, that FVAP assist only military voters and either
                                the Federal Election Commission (FEC) or the Department assist
                                nonmilitary American citizen voters. Their rationale was that the
                                number of American citizens abroad warrants dedicated assistance.
                                FEC is favored over the Department as the best choice because
                                FEC has experience similar to Defense experience with FVAP.
                                    An FEC official, however, informed OIG that the commission’s
                                focus is administration of Federal campaign finance laws. The FEC
                                Office of Election Administration is responsible for distributing
                                information to help state and local officials administer better elec-
                                tions; however, that function represents approximately 2 percent of
                                the FEC’s budget. A Democrats Abroad official commented that


12   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                    UNCLASSIFIED
                                   UNCLASSIFIED


                                the proposed division of responsibilities is a possible improvement,
                                but that funding for outreach to American citizen absentee voters is
                                more important than how or which agency or agencies administer
                                FVAP.
                                     The Democrats Abroad official told OIG that in 2000, Demo-
                                crats Abroad funded $76,000 in absentee voting advertising, and
                                that was insufficient. A Democrats Abroad report indicates adver-
                                tising resulted in hundreds of voters contacting their committees
                                abroad, embassies, and consulates for voting materials and assis-
                                tance. Additionally, advertising/outreach was credited with a 35
                                percent increase in Democrats Abroad membership between Febru-
                                ary 2000 to February 2001. Republicans Abroad officials told OIG
                                that $400,000 was spent on periodical advertising targeting absentee
                                voters abroad. The officials explained that the largest voter registra-
                                tion drive occurred during Fourth of July celebrations abroad.
                                They stated the Defense FVAP office needs to do more educating
                                of overseas citizens on their right to vote, particularly how to fill
                                out the Federal write-in ballot, and be more aggressive in obtaining
                                free advertising space from various news media abroad. The Re-
                                publicans Abroad officials explained that advertising/outreach is a
                                very cost-effective way to reach overseas Americans.
                                    Based on our review of the purpose, scope, and current imple-
                                mentation of FVAP, OIG found, that there are no functional or
                                operational reasons for the Department to assume the role of lead
                                agency for FVAP or a nonmilitary American citizen absentee voting
                                program. OIG found, however, that the Department needs to
                                place greater emphasis on its role in FVAP, especially its infrastruc-
                                ture and outreach to American citizens abroad.

                                The Department’s Chief VAO
                                Needs to Play a Larger FVAP Role

                                The Department’s chief VAO and over 200 post VAOs abroad
                                implement FVAP as an ancillary administrative function. The chief
                                VAO for the Department is in the Bureau of Consular Affairs, Of-
                                fice of American Citizen Services, Africa Division (ACS/AF). He
                                told OIG that the Department’s FVAP is located in ACS/AF be-
                                cause that division is the catchall for miscellaneous nonemergency
                                consular functions. It has the lowest number of emergency consu-
                                lar cases and the smallest staff: a division chief and four Civil Ser-
                                vice officers. The chief VAO felt, however, that given the current
                                level of FVAP responsibility, ACS/AF is capable of handling the
                                program. Additionally, U.S. Government and private American citi-
                                zens abroad polled by OIG gave post VAOs favorable voter assis-

Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001         13


                                   UNCLASSIFIED
                                    UNCLASSIFIED


                                tance ratings of 75 percent or higher. Voter assistance services
                                polled included the post VAO’s availability, knowledge of FVAP,
                                and the quality and appropriate quantity of materials used to pro-
                                vide absentee voter assistance. (See Appendices A and B.)
                                    OIG found, however, that there is no ACS/AF action plan or
                                funding designated for voter assistance. One post VAO told OIG
                                they did not know there was a Department-level VAO, although
                                two voting information cables, distributed to all diplomatic posts in
                                2000, were sent by the Department’s chief VAO providing his name
                                and contact information. Several VAOs informed OIG that every-
                                thing they requested or received was from the Defense FVAP, and
                                that post voter assistance was a very autonomous program. Several
                                consular section chiefs and VAOs expressed the view that the
                                Department’s VAO is ill-positioned in ACS/AF because that office
                                has no policy review or interagency liaison authority. ACS/AF thus
                                cannot effectively coordinate the planning, funding, training, and
                                global outreach needs of a Department FVAP that serves 3.8 mil-
                                lion American citizens abroad. OIG believes that the Bureau of
                                Consular Affairs should structure its FVAP to meet those coordina-
                                tion and planning needs, thus positioning the Department to imple-
                                ment a nonmilitary voting assistance program in the future.

                                Absentee Voter Outreach
                                Needs Improvement

                                According to senior representatives of the 16,000-member Federa-
                                tion of American Women’s Clubs Overseas, U.S. civilian voters
                                overseas are dependent on the Department. They believe sufficient
                                funds should be allocated to enable each U.S. consulate to provide
                                active overseas outreach. Currently overseas voters are dependent
                                on individual consular officers, some of whom provide outstanding
                                voting assistance to U.S. citizens as part of their efforts to partici-
                                pate in their country’s democratic process. Other NGOs, including
                                Democrats Abroad, also recommended additional Department
                                funding for absentee voter outreach, their rationale being the non-
                                military American citizen population overseas and the need for the
                                Department to take the lead in disseminating absentee voter infor-
                                mation. Republicans Abroad officials told OIG that the Defense
                                FVAP office needs to improve its outreach and inform overseas
                                citizens how to use the Federal write-in ballot. Republicans Abroad
                                rated the Defense FVAP web site as the best available; however,
                                they stipulated that the Defense FVAP office needed to be aggres-
                                sive in obtaining free absentee voting advertising from TV networks
                                and publications abroad. According to Defense FVAP officials, the

14   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                    UNCLASSIFIED
                                   UNCLASSIFIED


                                office advertises through the Voter’s Assistance Program Newsletter, its
                                web site, and U.S. embassies.
                                    The Department’s chief VAO informed OIG that Department-
                                level outreach includes cables (telegrams) to all diplomatic posts
                                promoting local absentee voter outreach and forwarding Defense
                                FVAP voter information updates to post VAOs. Additionally, the
                                Department’s chief VAO provides e-mail or telephonic responses
                                to FVAP inquiries from post VAOs. He could recall no Depart-
                                ment-level outreach or funding for absentee voting information in
                                international periodicals, such as Time, Newsweek, or the International
                                Herald Tribune. However, he acknowledged that, with appropriate
                                funding, such outreach would be beneficial to American citizens
                                abroad.
                                     A senior FSN voting assistant stated that for the 2000 elections,
                                her post did no outreach through foreign publications and newspa-
                                pers. She explained that the embassy published voter information
                                in foreign newspapers 15 years ago but not since. She also ad-
                                dressed a concern raised in some OIG American citizen discussion
                                groups, that FSNs are often perceived as less knowledgable about
                                FVAP than an American Foreign Service officer. She stated in most
                                cases that was untrue, and standard operating procedures are to re-
                                fer to the consular officer any U.S. citizen wishing to speak to an
                                American official. She added that all oaths required for absentee
                                voter material are administered by a Foreign Service officer.
                                     In exploring other methods for American citizen outreach, OIG
                                interviewed post Federal benefits unit officials and queried NGOs
                                during discussion group sessions. The president of a Democrats
                                Abroad chapter stated that outreach effectiveness varied from post
                                to post and recommended using the Internal Revenue Service (IRS)
                                and its Federal Tax Return mailings as a means of distributing vot-
                                ing information. Federal benefits unit supervisors at posts OIG
                                visited agreed that the IRS, Social Security Administration, Veterans
                                Administration, Office of Personnel Management, and Railroad
                                Retirement Board all provide benefits checks by mail to American
                                citizens and other beneficiaries abroad. Those mailings could be
                                used to distribute voter information, however coordination would
                                have to be performed with each organization’s headquarters in
                                Washington and implemented by their respective financial/mail dis-
                                tribution centers. Post Federal benefit officials also stated that the
                                best single source for such mailings would be the IRS followed by
                                the Social Security Administration. Those views and observations
                                are being considered in ongoing reviews of the UOCAVA of 1986.



Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001               15


                                   UNCLASSIFIED
                                    UNCLASSIFIED


                                    OIG learned that other U.S. Government agencies visiting posts
                                conduct American citizen outreach for their programs. The VAO at
                                one post suggested that the Defense FVAP should provide the De-
                                partment and its posts funding to advertise FVAP in the global and
                                local media. The VAO explained that when the IRS visits posts, it
                                pays for news releases informing the American public of the ser-
                                vices it provides, and FVAP could do the same thing. As indicated
                                above, OIG believes the Department has the primary responsibility
                                for implementation of the FVAP for nonmilitary American citizens,
                                including funding outreach to inform American citizens of their
                                rights and policies and procedures for voting from abroad. OIG
                                noted that the Department does not coordinate with the Bureau of
                                Public Affairs or the Office of Public Diplomacy in voter assistance
                                outreach. OIG found that neither the Department’s chief VAO nor
                                most post VAOs used the capabilities of those bureaus in outreach
                                efforts.
                                    How much should the Department spend on FVAP outreach?
                                OIG does not have a specific dollar recommendation; Democrats
                                and Republican Abroad spent $76,000 and $400,000, respectively.
                                Additionally, the Department of Defense FVAP has a Pentagon
                                staff of 13 people, a multitude of uniformed service VAOs, and an
                                annual budget of approximately $5 million. According to Defense’s
                                1997 report, FVAP received approximately $51 million worth of
                                public service advertising involving local and national broadcast and
                                print media outlets during the 1996 election season. According to
                                the report, Defense FVAP outreach was sponsored in conjunction
                                with the Advertising Council of New York and a host of NGOs.

                                  Recommendation 1: The Bureau of Consular Affairs should
                                 plan, program, structure, fund, and implement the Department’s
                                 Federal Voter Assistance Program to improve global and local out-
                                 reach efforts in coordination with the Department of Defense
                                 Federal Voter Assistance Program Office, the Department’s Bu-
                                 reau of Public Affairs, the Department’s Office of Public Diplo-
                                 macy, and those nongovernmental organizations partnering with
                                 the Department in meeting the absentee voter assistance needs
                                 of nonmilitary American citizens abroad.

                                    The Bureau of Consular Affairs concurs with this recommenda-
                                tion. (See Appendix E.)




16   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                    UNCLASSIFIED
                                   UNCLASSIFIED


                                Most Voting Assistance
                                Officers Lack Training

                                Only 18 of 136 posts responding to OIG’s absentee voting survey
                                indicated their VAOs had received Defense FVAP training. In
                                2000, the Defense FVAP office scheduled visits to 62 sites. Of
                                those, 29 sites were abroad, and 11 of those were Department
                                posts. Defense FVAP officials visited 9 posts and 1 NGO provid-
                                ing training to 129 people including private citizens, NGO volun-
                                teers, and post VAOs. The Defense FVAP web site contains a
                                PowerPoint training presentation for VAOs; however, none of the
                                post VAOs visited and only one VAO surveyed indicated they
                                viewed the presentation.
                                    OIG found that VAO training is included in the ACS module
                                of the Basic Consular Affairs training course as part of a 1-hour
                                introduction to ACS and nonemergency services. A Foreign Ser-
                                vice Institute official described the VAO training as minimal, having
                                no curriculum plan. Part of the hour of instruction on ACS ser-
                                vices is an overview of the Voting Assistance Guide, obtaining voting
                                materials, and notorization procedures. The Foreign Service Insti-
                                tute official assessed as overkill an OIG suggestion that a Defense
                                FVAP instructor be invited to teach that block of instruction. The
                                Department’s VAO, however, stated the best VAOs at posts were
                                FVAP-trained, and he recommended that Defense FVAP conduct
                                VAO training for the Department.
                                    Most untrained VAOs stated that they were able to provide
                                sufficient information and assistance to absentee voters abroad by
                                reviewing the Voting Assistance Guide and calling Defense FVAP or
                                local election officials with specific absentee voting questions. Post
                                VAOs that received FVAP training described the training as invalu-
                                able. Both trained and untrained post VAOs and their FSN assis-
                                tants lauded the Voting Assistance Guide as their most effective voter
                                assistance tool. That sentiment was also shared by NGO voting
                                assistance volunteers, who told OIG that they had received FVAP
                                training.
                                     OIG found that FSN voting assistants averaged 22 years of ser-
                                vice and had received FVAP training in one or more sessions since
                                1976. One VAO cautioned, however, that FSNs need to be in-
                                cluded in any Department FVAP training initiatives because they
                                are relied upon to provide accurate absentee voter information. His
                                own FSN voting assistant had not received formal FVAP training in
                                10 years. VAOs compared the role of providing FVAP voter regis-
                                tration and absentee ballot forms to providing IRS tax forms. “The
                                post gives out IRS forms but does not give tax advice. A trained

Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001         17


                                   UNCLASSIFIED
                                    UNCLASSIFIED


                                IRS representative comes to post and provides tax return advice.
                                With the FVAP, we VAOs have to give out advice and therefore
                                need the training.” OIG believes that with the huge majority of
                                overseas voters now shifted to the Department’s responsibility, it
                                needs to train FVAP instructors. These instructors can conduct or
                                assist Defense FVAP instructors in conducting FVAP training for
                                post VAOs and their assistants, and NGO volunteer voting
                                assistants.



                                 Recommendation 2: The Bureau of Consular Affairs should
                                 identify the voting assistance officer training needs for the
                                 Department’s Federal Voter Assistance Program, and, in coordi-
                                 nation with the Director of the Foreign Service Institute and the
                                 Department of Defense Federal Voter Assistance Program Of-
                                 fice, plan, program, fund, and implement a Department of State
                                 voter assistance training program for instructors and voting as-
                                 sistance officers and their assistants. Those Bureau of Consular
                                 Affairs Federal Voter Assistance Program instructors should be
                                 used to train nongovernmental organization volunteers and pri-
                                 vate citizens abroad to be absentee voting assistants.

                                    The Bureau of Consular Affairs concurs with this recommenda-
                                tion. (See Appendix E.)

                                Mailing Absentee Voting Forms

                                Most absentee voting forms completed by U.S. absentee voters
                                abroad are returned to the United States by mail. Some potential
                                pitfalls of mailing absentee voting forms to and from voters abroad
                                are: 1) the lengthy transit time of some overseas mailings prevents
                                both voters and election officials from receiving voting forms on
                                time, and 2) the requirement of some state election officials that
                                voting forms must contain an overseas postmark may cause some
                                absentee ballots to be disqualified. OIG believes that improved
                                outreach efforts by the Department should educate overseas Ameri-
                                can citizens about their opportunity to vote, mailing absentee voting
                                forms to ensure on-time arrival, and assure voters that absentee
                                votes are counted.




18   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                    UNCLASSIFIED
                                   UNCLASSIFIED


                                    Express Mail Service: Fastest Way of Returning
                                    Ballots to the United States

                                All of the posts OIG visited stated that DHL, a U.S. express mail
                                company, offered to return American citizen absentee ballots to the
                                United States free of charge. Most of the posts surveyed by OIG
                                used DHL. However, some used Federal Express for a combined
                                express mail ballot return rate of 36 percent. OIG questionnaire
                                results from posts visited indicate that 21 percent of private citizens
                                overseas and 14 percent of Government citizens overseas used
                                DHL/Federal Express to return their ballots to the United States.
                                A DHL European regional director informed OIG that the service
                                DHL provided varied by country and in some cases by city. Some
                                DHL operations accepted absentee ballots at each office location
                                and picked up ballots deposited at an embassy or consulate, some at
                                DHL office locations only, and others from an embassy or consu-
                                late only. The director admitted there were some internal commu-
                                nication problems within DHL. He explained their services were
                                provided with the stipulation that delivery was guaranteed for those
                                ballots mailed with DHL by November 1, 2000. The director ex-
                                plained that for those ballots accepted after November 1, however,
                                the company could not guarantee postmarks and arrival dates. He
                                stated that once DHL transported ballots to the United States, they
                                were transferred to the U.S. Postal Service (USPS) for delivery to
                                election officials.
                                    A USPS official informed OIG that USPS does not postmark
                                postage-paid mail, such as absentee ballots, because there are no
                                stamps that require cancellation. Also, the USPS plant manager for
                                the New York International Service Center stated that once re-
                                ceived in the international service center, military and international
                                mail is treated as domestic first class mail, and, because the center is
                                not an originating facility, they do not postmark any type of mail.
                                OIG concluded, therefore, that lack of postmarks was a problem
                                for some ballots mailed through DHL.
                                    OIG learned that 15 states have extended deadlines where the
                                requirement for an overseas postmark could become an issue. Ex-
                                tended deadlines for absentee ballots permit absentee ballots from
                                abroad to arrive after election day and be counted. A number of
                                NGOs, including Democrats Abroad and American Citizens
                                Abroad, recommended postmark/date stamp requirements be
                                eliminated by uniformly fixing the deadline for receipt of ballots on
                                election day. They also recommended limiting authentication re-
                                quirements for absentee ballots to just the voter’s signature, dated
                                and witnessed. OIG believes that making this change would resolve

Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001          19


                                   UNCLASSIFIED
                                    UNCLASSIFIED


                                postmark problems for not only DHL mailings, but also for military
                                post offices (MPO) and the Department’s diplomatic pouch system.
                                     The DHL director described the Department’s Bureau of
                                Consular Affairs as uncooperative in advertising DHL’s free absen-
                                tee balloting services on a global basis. He stated that DHL and the
                                Department had no formal agreement or contract for absentee bal-
                                lot services. He explained, however, that they cooperated in provid-
                                ing local outreach notifications about the service, and in some
                                cases posts were absentee ballot collection and dispatch points.
                                He described the coordination with local embassy and consulate
                                VAOs and NGO voting assistants as great. OIG found that the
                                Department’s chief VAO does not conduct global absentee voter
                                outreach initiatives. He explained that DHL’s request for the De-
                                partment to globally announce its free service was denied because
                                the Department does not advertise for private enterprises. OIG
                                supports that position; however, OIG believes that the Department
                                needs to conduct Bureau of Consular Affairs-based absentee voter
                                outreach. The Bureau’s outreach initiatives should include not only
                                information on the voting services provided by the Department,
                                but also the services provide by NGOs partnering with the Depart-
                                ment. The Department’s chief VAO agreed with OIG that Depart-
                                ment-level voter outreach is needed. As an NGO in this case, pro-
                                viding free express mail service to American voters abroad, DHL
                                estimates that over 10,000 absentee ballots were returned to the
                                United States using its express services. (See Recommendation 1.)

                                       Military Postal System Support Worked Well

                                According to the Department’s chief of the mail and pouch system,
                                57 posts receive direct MPO service. All the MPOs OIG visited
                                postmarked absentee ballots and had average first class mail (ballot)
                                transit times of 3 to 7 days. MPO supervisors at the 5 posts visited
                                informed OIG that approximately 7,100 absentee ballots were
                                mailed to the United States. There were seven ballots returned to
                                their overseas sender. In those cases MPO supervisors determined
                                the cause of the returns was bar coding on the reverse side of an ab-
                                sentee ballot. Election officials mailed some ballots containing the
                                absentee voters name, address, and a USPS routing bar code on the
                                reverse side of the ballot envelope. If the bar code is not blackened
                                out by the voter or an overseas mail handler, USPS mail routing ma-
                                chinery in the United States could inadvertently read the reverse
                                side resulting in the ballot’s being returned to the voter instead of
                                being forwarded to election officials. MPO and post mailroom per-
                                sonnel interviewed estimated that two-thirds of the absentee ballots
                                from Florida contained bar codes on both sides of the ballots.
20   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                    UNCLASSIFIED
                                   UNCLASSIFIED


                                    The posts OIG visited had onsite MPO services. OIG ques-
                                tionnaire results indicate that private citizens overseas used the
                                MPO only 5 percent of the time, with international mail the pre-
                                ferred system at 53 percent. U.S. Government citizens employed
                                overseas used the MPO for 64 percent of absentee ballot mailings.
                                All MPO personnel OIG interviewed were aware that any Ameri-
                                can citizen abroad could mail absentee voting materials to the
                                United States using the MPO system, with or without postage af-
                                fixed, including American citizens not otherwise authorized to use
                                an MPO. OIG found, however, that VAOs and most NGOs ad-
                                vising American citizens of the absentee voting process were un-
                                aware of the unrestricted use of an MPO for mailing absentee vot-
                                ing material back to the United States. One embassy visited pro-
                                vided exceptional service to its absentee voters by providing post-
                                age for ballot mailings to those election districts that did not have
                                prepaid permits on their ballots. OIG provided VAOs a copy of
                                the Defense Mail Manual section outlining use of the MPO for all
                                absentee voting materials. OIG believes that improving the
                                Department’s voting assistance training and outreach could correct
                                those problems.
                                    GAO recently testified that their limited review of the military
                                postal system and postmarking procedures after the 2000 election
                                did not indicate that either missing postmarks or the lack of timeli-
                                ness of mail delivery represented a systemic problem. (See Recom-
                                mendations 1 and 2.)

                                        Diplomatic Pouch Used Least to Mail Ballots

                                Mailroom supervisors at post that have MPO services told OIG
                                that they did not use the Department’s pouch system to mail absen-
                                tee voting materials to the United States. Of those posts surveyed
                                by OIG, 23 percent used the pouch system. Mailroom supervisors
                                and VAOs stated the average transit time for diplomatic pouch var-
                                ied from 1 to 5 weeks. Of the 55 posts using the diplomatic pouch
                                to return absentee ballots, none reported problems with postmark-
                                ing or getting the ballots to election officials on time. However, 15
                                posts recommended improving the diplomatic pouch system by
                                authorized use of a date stamp or postmark.
                                     According to the Department’s chief of the mail and pouch
                                system, unclassified pouch mail, like absentee ballots, is delivered as
                                airfreight from abroad and processed at the Department’s Dulles
                                International Airport facility. Mail to be forwarded through USPS is
                                dispatched to a USPS facility in Sterling, Virginia, for postmarking
                                and routing to its end destination. As noted earlier in this report,

Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001         21


                                   UNCLASSIFIED
                                    UNCLASSIFIED


                                USPS does not postmark postage-paid mail like most absentee bal-
                                lots, and those absentee ballots permitted by election officials to
                                arrive after election day require an overseas postmark. The
                                Department’s chief of the mail and pouch system stated that posts
                                receiving mail services solely by diplomatic pouch have no means or
                                authority to postmark mail. Neither does the Department’s Dulles
                                pouch processing facility.
                                     The pouch official told OIG that the Department received the
                                authority to test the feasibility of creating State Post Offices (SPO)
                                in 39 U.S.C. 413 (1990). An SPO would operate through agreement
                                with USPS like an MPO, including the authority and requirement to
                                postmark all outgoing mail. A November 1992 Bureau of Informa-
                                tion Resource Management study concluded that establishing SPOs
                                was not cost effective. Based, however, on the continuing closure
                                of military installations and MPOs abroad, and the increasing cost
                                of airfreight, the Department announced on March 20, 2001, that it
                                will commission another study to analyze the feasibility of establish-
                                ing SPOs at U.S. embassies and consulates overseas. The study will
                                be completed in 2002, and will focus on creating SPOs at only
                                those posts without MPO services. OIG believes establishing SPOs
                                would be an outstanding quality of life enchancement for the De-
                                partment and other Government agency personnel working at our
                                posts that currently do not have MPO services. An SPO’s ability to
                                postmark absentee ballots would be an added benefit.
                                     The Department’s pouch official informed OIG that the cost
                                of the SPO study would not be increased if the issue of USPS au-
                                thorized use of postmarks or date stamps on diplomatic pouch mail
                                were to be added. The postmark or date stamp authorization for
                                post mail and pouch sections was discussed with OIG as an alterna-
                                tive should the current SPO study prove that establishing SPOs is
                                not cost effective. The Department’s pouch official agreed with
                                OIG that authorized postmarks on diplomatic pouch mail would
                                be both a quality of life enhancement for many Department em-
                                ployees and an absentee voting benefit for American citizens
                                abroad. The Department’s Bureau of Administration, Office of
                                Logistics Management, has agreed to add postmark authorization
                                to its SPO feasibility study. As noted earlier in this report, OIG
                                believes the best solution for overseas postmark requirements on
                                absentee ballots is the American Citizens Abroad and Democrats
                                Abroad proposal for states to eliminate the postmark requirement
                                and stipulate that all absentee ballots from abroad be delivered by
                                election day.



22   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                    UNCLASSIFIED
                                   UNCLASSIFIED


                                Lessons Learned

                                Only 6 of 136 posts responding to OIG’s absentee voting survey
                                wrote lessons learned after the 2000 Federal elections. All posts
                                OIG visited established continuity files on voter assistance. The
                                two most common problems reported by post VAOs and their FSN
                                assistants were voters registering to vote and not receiving their bal-
                                lots at all or in time to vote (77 posts), and over 100 voters arriving
                                at 33 different posts on election day wanting to vote at the embassy
                                or consulate. One Florida election supervisor notified a Depart-
                                ment absentee voter that his Federal write-in absentee ballot was
                                received for the November 7, 2000, general election but was re-
                                jected as illegal by the canvassing board because the witness signing
                                the ballot did not give his or her address. The witness on the ab-
                                sentee ballot was a Department official. The Department uses its
                                official seal to denote its address (Embassy of the United States and
                                the location) on absentee ballots, including a responsible officer’s
                                signature and date.
                                    The Department’s Bureau of Consular Affairs guidance on re-
                                quired reports and voting assistance (7 FAM 080 and 1520) contains
                                no requirement for post-election lessons learned. However 7 FAM
                                1571 encourages posts to suggest ways to improve the voting pro-
                                gram and the information material disseminated by the Depart-
                                ment. OIG found the Department’s guidelines, published in 1993,
                                need updating. The Foreign Affairs Manual indicates that:
                                   • the Department’s VAO is assigned to CA/OCS/CCS;
                                     however, his office is CA/OCS/ACS/AF,
                                   • the only option provided for contacting Defense FVAP is a
                                     mailing address; however, toll-free numbers and a web site
                                     are available,
                                   • a special note on the State of Connecticut not being required
                                     to accept a Federal write-in absentee ballot changed in 1996,
                                     and
                                   • the Foreign Affairs Manual fails to specify that the Federal post
                                     card application and Federal write-in ballot can be mailed
                                     postage free (as well as postage paid) in the United States,
                                     from an APO or FPO, and through a diplomatic pouch
                                     facility abroad.
                                    Additionally, the 7 FAM 1545 guidance to consular officers
                                states they may accept Federal post card applications and Federal
                                write-in ballots for mailing through APO/FPO and by diplomatic
                                pouch. OIG believes that guidance should be changed to more ac-
                                curately state that consular officers will accept these applications and

Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001          23


                                   UNCLASSIFIED
                                    UNCLASSIFIED


                                ballots, or any state’s absentee balloting material, for mailing
                                through an APO/FPO or by diplomatic pouch. OIG also noted
                                that the FAM needs updated information on reporting FVAP fraud,
                                waste, abuse, or mismanagement to the OIG hotline.
                                     VAOs informed OIG that they do not have access to a list of
                                officers designated as VAOs to share lessons learned, best practices,
                                or training techniques. VAOs therefore rely on and create VAO
                                continuity files after each election season. Some of the best prac-
                                tices OIG observed were: creation of an information unit that
                                fielded over 5,000 calls and web site queries for absentee voter assis-
                                tance, a VAO having the post print shop reproduce state-by-state
                                sections (500 each) of the Voting Assistance Guide for quick re-
                                sponses to American citizen requests for information, a VAO devel-
                                oping a spreadsheet with state-by-state information on election
                                deadline dates, and annual Fourth of July celebrations that included
                                voter registration facilities. OIG believes that those best practices
                                could be posted on the Bureau of Consular Affairs Best Practices
                                web site, accessed by post VAOs, and used Departmentwide as
                                FVAP outreach initiatives in the future.

                                 Recommendation 3: The Bureau of Consular Affairs should
                                 review and update Volume 7 of the Foreign Affairs Manual to
                                 include a requirement that Department Federal Voter Assistance
                                 Program lessons learned be compiled, addressed, and dissemi-
                                 nated to posts by the Department’s voting assistance staff. The
                                 revision should incorporate needed corrections identified in this
                                 report. Additionally, information on reporting fraud, waste, abuse,
                                 or mismanagement in the Department’s Federal Voter Assistance
                                 Program to the Office of Inspector General, with the address,
                                 hotline number, and web site address, should be added to Volume
                                 7 of the Foreign Affairs Manual.

                                    The Bureau of Consular Affairs concurs with this recommenda-
                                tion. (See Appendix E.)

                                    Department Can Improve Defense
                                    FVAP Survey Data Collection

                                OIG observed a post best practice for the collection of Defense
                                FVAP survey data. The Department participates in the Defense
                                FVAP post-election survey, which captures voter participation and
                                satisfaction with the absentee voting process. Approximately 40
                                posts participated in the 2000 FVAP survey by mailing from 100 to


24   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                    UNCLASSIFIED
                                   UNCLASSIFIED


                                300 surveys each to local absentee voters. A recurring response
                                problem with the FVAP survey is that the Department’s chief VAO
                                randomly selects FVAP survey participants for each post from
                                American citizen Warden System registration data. Post VAOs told
                                OIG that because the Department’s Warden System does not re-
                                quire American citizens to notify the post when they leave country,
                                the response rate for FVAP surveys has been as low as 20 to 30 per-
                                cent. Additionally, VAOs informed OIG that mailing FVAP sur-
                                veys by in-country international mail cost thousands of dollars.
                                    One post VAO told OIG that they were congratulated by the
                                Department’s VAO and Defense FVAP for their high 1996 FVAP
                                survey return rate of over 90 percent. The VAO told OIG that rate
                                was obtained by randomly selecting American citizens visiting the
                                post for other ACS services, and asking them to complete the
                                FVAP survey while they waited in the lobby. Another post also
                                used this practice for the 2000 FVAP survey, and all other VAOs
                                OIG visited (and three surveyed) recommended that means of ob-
                                taining FVAP survey results. The VAOs stated the change would be
                                both a cost savings and increased return rate measure. OIG be-
                                lieves that posts randomly selecting Defense FVAP survey partici-
                                pants is a best practice that should be shared on the Bureau of Con-
                                sular Affairs Best Practices web site and used Departmentwide for
                                future FVAP surveys.

                                Improving the Federal Absentee
                                Voter Assistance Program

                                    Most VAOs and NGOs stated the best method for solving ab-
                                sentee voter problems overseas is to allow voting through the
                                Internet. One VAO commented that banks use e-transactions, so
                                that should be safe enough for voting. An absentee voter in Ger-
                                many cited filing taxes on-line as a parallel to being able to securely
                                vote on-line. Voting through the Internet or by fax was the number
                                6 recommended improvement by posts surveyed by OIG. (See Ap-
                                pendix C.) GAO recently testified that according to some Defense
                                and state election officials, security and privacy issues pose chal-
                                lenges to widespread use of the Internet for casting votes. GAO is
                                reviewing technology issues, such as Internet voting, as part of their
                                ongoing work on election issues. Perhaps highlighting the frustra-
                                tions of American citizens abroad is that the second most recom-
                                mended improvement by NGOs was voting at a U.S. embassy or
                                consulate.
                                   VAOs stated the Department needed to play a bigger role in the
                                FVAP because the Department now has the largest absentee voter

Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001         25


                                   UNCLASSIFIED
                                    UNCLASSIFIED


                                population base. An FSN voting assistant provided OIG 1986 sta-
                                tistics of 6,000 absentee voters supported by that post and year
                                2000 population figures of over 200,000 American citizens sup-
                                ported by post. All VAOs contacted agreed that Defense was doing
                                a good job with FVAP; however, they stated the Department
                                needed to play a larger role than it has, primarily in the form of
                                headquarters-level outreach and funding for local outreach. Ameri-
                                can citizens coming to post too late to register and vote and those
                                that came to post on election day to vote were the primary indica-
                                tors VAOs provided OIG that more outreach is needed. The
                                Department’s role and recommended FVAP implementation im-
                                provements have been addressed in this report.
                                    Several NGOs publishing proposals for electoral reforms af-
                                fecting overseas citizens cited a major public relations problem is
                                the perception that the overseas absentee vote is primarily military.
                                The Federation of American Women’s Clubs Overseas proposes
                                better statistical data be provided by the FEC on the numbers of
                                military and civilian overseas voters, and the number of registration
                                applications and ballots received and rejected by state. OIG be-
                                lieves those statistics, adding where the overseas voters reside by
                                country, would aid the Department in targeting its outreach efforts
                                and improving its FVAP assistance to American citizens abroad.
                                Both VAOs and NGOs stated that the Federal post card application
                                could be improved by having election officials agree to wave the
                                notorization requirements, making the print larger, redesigning the
                                county and state information line because it is easily missed, and
                                adding a block for requesting only a Federal Election ballot. Both
                                VAOs and NGOs recommended the Defense FVAP create both a
                                consolidated, and a state-by-state, quick reference spreadsheet(s) in
                                the Voting Assistance Guide. Of 12 NGOs that took part in OIG
                                voter group discussions, 4 had developed a spreadsheet containing
                                consolidated Voting Assistance Guide information for each state.
                                These views and recommendations are being considered in ongoing
                                reviews of UOCAVA.




26   Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001



                                    UNCLASSIFIED
                                   UNCLASSIFIED



Lis
Listt of Recommendations
         Recommendations

                                Recommendation 1: The Bureau of Consular Affairs should plan,
                                  program, structure, fund, and implement the Department’s Fed-
                                  eral Voter Assistance Program to improve global and local out-
                                  reach efforts in coordination with the Department of Defense
                                  Federal Voter Assistance Program Office, the Department’s Bu-
                                  reau of Public Affairs, the Department’s Office of Public Diplo-
                                  macy, and those nongovernmental organizations partnering with
                                  the Department in meeting the absentee voter assistance needs
                                  of nonmilitary American citizens abroad.

                                Recommendation 2: The Bureau of Consular Affairs should
                                  identify the Department’s Federal Voter Assistance Program vot-
                                  ing assistance officer training needs, and, in coordination with
                                  the Director of the Foreign Service Institute and the Depart-
                                  ment of Defense Federal Voter Assistance Program Office, plan,
                                  program, fund, and implement a Department of State voter as-
                                  sistance training program for instructors and voting assistance
                                  officers and their assistants. Those Bureau of Consular Affairs
                                  Federal Voter Assistance Program instructors should be used to
                                  train nongovernmental organization volunteers and private citi-
                                  zens abroad to be absentee voting assistants.

                                Recommendation 3: The Bureau of Consular Affairs should re-
                                  view and update Volume 7 of the Foreign Affairs Manual to in-
                                  clude a requirement that Department Federal Voter Assistance
                                  Program lessons learned be compiled, addressed, and dissemi-
                                  nated to posts by the Department’s voting assistance staff. The
                                  revision should incorporate needed corrections identified in this
                                  report. Additionally, information on reporting fraud, waste,
                                  abuse, or mismanagement in the Department’s Federal Voter
                                  Assistance Program to the Office of Inspector General, with the
                                  address, hotline number, and web site address, should be added
                                  to Volume 7 of the Foreign Affairs Manual.




Report No. 01-FP-M-045, Implementation of the Federal Voter Assistance Program — August 2001     27


                                   UNCLASSIFIED
